U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


           OGLALA SIOUX
    RURAL WATER SUPPLY SYSTEM,
         MNI WICONI RURAL
      WATER SUPPLY PROJECT,
      BUREAU OF RECLAMATION

             REPORT NO. 99-I-627
                 JUNE 1999
                                                                     W-IN-BOR-004-98(A)-R


              United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20230


                                                                     JUN 29 1999

Memorandum

To:       Assistant Secretary for Water and Science

From:     Robert J. Williams rf      _L-$Lt ,/ &_L-t& -,-
                                            ?+
          Assistant Inspector General for Audits

Subject: Audit Report on the Oglala Sioux Rural Water Supply System, Mni Wiconi
         Rural W7ater Supply Project, Bureau of Reclamation (No, 99-I-627)

This report presents the results of our audit of the cost of constructing the Oglala Sioux Rural
Water Supply System, which is part of the Mni Wiconi Rural Water Supply Project located
in South Dakota. The objectives of the audit were to (1) identify the source of any actual or
projected System cost overruns and (2) determine whether the costs incurred by the Oglala
Sioux Tribe were expended in accordance with Federal law, regulations, and funding
agreements. Our review of the Tribe was performed as part of our audit of the four
non-Federal sponsors of the Project, including the Tribe. The results of our review of the
other Project sponsors have been presented in separate reports. The audit of the Mni Wiconi
Project was undertaken at the request of three members of the Congress.

Based on our review, we found that cost overruns totaling an estimated $49.7 million will
occur in constructing the Oglala Sioux Rural Water Supply System as currently designed.
This amount consists of $16.3 million expended for System components completed or under
construction and $33.4 million for future construction. Furthermore, the Tribe is likely to
exceed its percentage allowance for noncontract activities, which we estimate would increase
the cost overruns by $12.9 million, to a total of $62.6 million. These overruns will occur
because the costs for some of the components were underestimated; other components were
not included in the Bureau’s May 1993 Final Engineering Report; and the Bureau and the
Tribe did not ensure that the System was planned. designed, and constructed as described in
the Report, As a result, we believe that the System as currently designed cannot be
completed within the existing appropriation ceiling.

We also found that the costs incurred by the Tribe under construction contracts for the
System ($34.3 million) and for related noncontract activities, such as design, geotechnical
design, archaeology, inspection, and investigation (totaling $14.4 million), were generally
expended in accordance with Federal law, regulations, and funding agreements. However,
our review of costs of $15.6 million incurred by the Tribe for other noncontract activities
(contract and easement administration and training) identified expenditures that were not
allowable under Ofice of Management and Budget Circular A-87 or the cooperative
agreements, were not supported by the Tribe’s accounting records, or were not in compliance
with the provisions of the cooperative agreements or the indirect cost rate agreements. We
believe that the questioned expenditures occurred because the Bureau and the Tribe did not
clearly establish in the funding agreements the amounts and the types of costs that can be
charged to the System or ensure that the indirect cost charges were based on the approved
rates. As a result, of the costs of $660,728 tested for compliance, we classified $64,919 as
cost exceptions because they were not applicable to the System and $266,228 as unsupported
costs because of a lack of documentation showing the relationship of the costs to the System.
Also, of the costs of $486,722 charged to an administrative account established under the
1994 cooperative agreement, we questioned $366,428 because the expenditures did not meet
the terms of the agreement. Further, we classified indirect costs totaling $456,53 1 as cost
exceptions because the Tribe did not adjust its charges to the System for its indirect costs
when the final indirect costs rates were approved.

To address the estimated cost overruns, we recommended that the Bureau (1) request an
increase in the authorization ceiling or negotiate with the Tribe to reduce System costs by
modifying or eliminating System components, (2) negotiate a requirement in its ongoing and
future cooperative agreements to establish a cost accounting system for construction projects,
and (3) provide increased monitoring of System expenditures. Regarding the cost compliance
issues, we recommended that the Bureau (1) modi@ the cooperative agreements to identify
the type and amounts of allowable costs for contract and easement administration and training
and (2) instruct the Tribe to reimburse the System or provide support for the cost exceptions
and unsupported costs identified by our review.

In the May 25, 1999, response (Appendix 5) to the draft report from the Commissioner,
Bureau of Reclamation, the Bureau concurred with Recommendations A. 1, A.3, B. 1, B.2,
B-3, and B.4, and nonconcurred with Recommendation A.2. However, we believe that the
actions proposed in the Bureau’s response meet the intent of Recommendation A.2.
Therefore, based on the response, we consider all of the recommendations resolved but not
implemented. Accordingly, the recommendations will be referred to the Assistant Secretary
for Policy, Management and Budget for tracking of implementation (see Appendix 7).

On May 27, 1999, we received a response from the President of the Oglala Sioux Tribe,
which nonconcurred with our findings on cost compliance but did not address our finding on
project cost overruns. We have considered the Tribe’s comments in preparing our final report
and have revised the amount reported as unsupported costs based on additional
documentation provided by the Tribe.

Since the report’s recommendations are considered resolved, no tirther response to the Office
of Inspector General is required (see Appendix 7).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of the findings
(Appendix l), actions taken to implement audit recommendations, and identification of each
significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau and Tribal personnel in the conduct of our audit.
                           CONTENTS
                                                     Page

I N T R O D U C T I O N     .   .                     I

  BACKGROUND .           .                            1
  OBJECTIVES AND SCOPE . .                            2
  PRIOR AUDIT COVERAGE                                3

FINDINGS AND RECOMMENDATIONS                          4

  A. PROJECT COST OVERRUNS                            4
  B.  COST  COMPLIANCE .  .                           9

APPENDICES

  1.   CLASSIFICATION OF MONETARY AMOUNTS . . . .    19
  2.   AGREEMENTS BETWEEN THE OGLALA SIOUX TRIBE
          AND THE BUREAU OF RECLAMATION . .          20
  3.   COSTS CONTRIBUTING TO PROJECTED OVERRUN       21
  4.   REVIEW OF SELECTED ACCOUNTS .             .   22
  5.   BUREAU OF RECLAMATION RESPONSE .    .   . .   23
  6.   OGLALA SIOUX TRIBE RESPONSE .  .  .   .   .   28
  7.   STATUS OF AUDIT REPORT RECOMMENDATIONS . .    37
                                      INTRODUCTION

BACKGROUND

The Mni Wiconi Project Act of 1988 (Public Law 100-516) authorized and directed the
Secretary ofthe Interior to construct the Mni Wiconi Rural Water Supply Project to provide
a safe and adequate municipal, rural, and industrial water supply to both Indian and
non-Indian residents of South Dakota. Initially, the Project included the Oglala Sioux Rural
Water Supply System, the West River Rural Water System, and the Lyman-Jones Rural
Water System. In 1994, the West River and the Lyman-Jones Systems were merged into one
system, known as the West River/Lyman-Jones Rural Water System. The Mni Wiconi Act
Amendments of 1994 (Public Law 103-434, Title 8) added construction ofthe Rosebud Sioux
and the Lower Brule Sioux Rural Water Systems to serve the respective reservations, thereby
increasing the number of Project “sponsors” to four. The amendments also raised the
authorized appropriation ceiling for the Project from $87.5 million to $263.2 million, subject
to cost indexing,’ and provided that the systems would generally be constructed in accordance
with the Project’s Final Engineering Report, dated May 1993. The Report also established
the appropriation ceilings for each sponsor’s water system and for the core pipeline system,
which is being constructed by the Oglala Sioux Tribe.

The core system, which is estimated to cost $98.4 million (indexed to October 1999) is
shared by the four project sponsors and serves as the main diversion of Missouri River water
that is conveyed to each of the sponsor’s respective distribution systems. The Act, as
amended, also authorized the Secretary to enter into cooperative agreements with the three
tribes, subject to the provisions of the Indian Self-Determination and Education Assistance
Act (Public Law 93-638) as amended, to provide funds for planning, designing, constructing,
operating, maintaining, and replacing their respective systems. Separate cooperative
agreements were authorized for planning, designing, and constructing the West River/Lyman-
Jones System, with the Project sponsor responsible for 20 percent ofthese costs. In addition,
the Project sponsor is solely responsible for the cost of operating, maintaining, and replacing
the System. The Bureau of Reclamation serves as the oversight agency for the Project, with
the authority to enter into cooperative agreements and to provide the technical and
administrative oversight needed to complete the planning, design, and construction of the
Project. The Bureau’s oversight includes reviewing and approving reports, construction
plans, specifications, work schedules, fund requests, and change orders. The Bureau has
entered into three cooperative agreements with the Tribe since the Project’s inception (see
Appendix 2).

The overall Project includes a water treatment plant, 4,500 miles ofpipeline, 60 booster pump
stations, and 35 water storage reservoirs. The Project will ultimately serve more than
50,000 people, including more than 40,000 Indians on the three reservations. In its “Master




‘Cost indexing is the process of updating the Congressionally authorized appropriation ceiling for changes
generally attributable to economic factors, usually inflation. The Project’s indesed appropriation ceiling
through October 1999 is estimated to be $327 million.

                                                    1
Plan,“’ the Bureau estimated that the total cost to complete the Project would be
$387 million, or $60 million more than the indexed Project cost of $327 million. The
projected overrun was attributable to the Oglala Sioux and the Lower Brule Sioux Systems,
In the “Master Plan,” the Bureau also estimated that at current funding levels, the
$327 million would not be fully appropriated until 2006. However, the authorization to
appropriate funds for the Project expires in 2003. As of September 30, 1998, the Bureau had
allocated Federal funds of $107.5 million to Project sponsors, including S4.3 million for
Bureau administration and oversight charges to the sponsors.

The Oglala Sioux Rural Water Supply System as authorized includes about 560 miles of
pipelines, 30 booster pump stations, and 27 water storage reservoirs and will serve
approximately 2 1,000 people on the Pine Ridge Indian Reservation. The cost of the Oglala
System, originally estimated at $145.3 million in the Final Engineering Report, was indexed
in the “Master Plan” to $175.2 million (October 1999 dollars). As of September 30, 1998,
about $71.8 million (41 percent of the estimated costs) had been allocated, and about
$67.4 million (38 percent of the estimated cost) had been expended.’

OBJECTIVES AND SCOPE
The objectives of our audit, which was conducted at the request of three members of the
Congress, were to (1) identify the source of any actual or projected cost overruns and
(2) determine whether the costs incurred by the Tribe were made in accordance with Federal
law, regulations, and funding agreements. Our audit of the Tribe was performed as part of
our audit of the four non-Federal sponsors of the Project. The results of the audits of the
other three Project sponsors have been presented in separate reports.

To accomplish our audit objectives, we reviewed applicable legislation and Federal,
Department of the Interior, and Tribal regulations and policies governing the authorization
and management of the System. In addition, we reviewed the Indian Self-Determination and
Education Assistance Act, as amended, and documents and financial activities related to the
System, such as procurement practices, correspondence, System reports, engineering
estimates, bid abstracts, contracts, and invoices. We also reviewed the Tribe’s financial
statements and compliance reviews of the System performed by the Tribe’s contracted
accounting firm. Further, we interviewed Bureau program and Tribal personnel to obtain an
understanding ofthe System’s financial management and accounting systems; personnel from
the engineering firm contracted by the Tribe to plan, design, and manage the System’s
construction; and members of the public accounting firm that performed the Tribe’s annual



‘The “Master Plan.” dated May 1998. established the construction schedule for each segment of the Project
and documented historical and projected costs to enable the Bureau and Project sponsors to track the status
of the Project. The “Master Plan” also enabled the Bureau and Project sponsors to estimate the effect of
changes in annual appropriations and prices on the construction schedule. The “Master Plan” projected a
Project construction ceiling of $327 million. indexed through October 1999. as presented m Bureau budget
documents for fiscal year 2000. The “Master Plan” also included a breakdown of this ceiling for individual
Project sponsors. The total estimated Project costs of $387 million were based on information provided by
Project sponsors, The Bureau plans to update the “Master Plan” periodically.

‘These amounts include $3.1 million for administration and oversight charges by the Bureau

                                                    2
financial audit and compliance reviews ofthe System’s expenditures. Our audit encompassed
construction activities and records from the System’s inception in 1991 through
September 30, 1998, including the Bureau’s cost estimates to complete the System. Our
compliance testing of the System’s accounting records included the period of January 1995
through September 1998. Our compliance testing did not include accounting periods prior
to January 1995 except for our review of the Tribe’s indirect cost charges because ofthe lack
of availability of the records at the Tribal offices.

The audit was made, as applicable, in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included such tests
of records and other auditing procedures that were considered necessary under the
circumstances. As part of the audit, we reviewed the Secretary’s Annual Statement and
Report to the President and the Congress, required by the Federal Managers’ Financial
Integrity Act for fiscal years 1994 and 1995; the Departmental Reports on Accountability for
fiscal years 1996 and 1997, which include information required by the Act; and the Bureau’s
annual assurance statements on management controls for fiscal years 1997 and 1998. Based
on those reviews, we determined that no material weaknesses were reported that directly
related to the objectives and scope of our review.

Our analysis ofthe financial status of the Oglala Sioux Rural Water Supply System was based
on expenditures, cost estimates, and other financial and planning data available as of
September 30, 1998. As such, our conclusions regarding any actual or projected cost
overruns may be affected by subsequent events concerning the cost and design ofthe System.
These events include modifications, additions, and deletions of construction components;
revisions of cost estimates based on more current data; increases in the authorized Project
ceiling; and efforts by the Bureau and the Tribe to implement cost-saving measures. In this
regard, the Bureau issued, in December 1998, the draft “Mm Wiconi Rural Water Supply
Project Cost Containment Report,” which presents various options for reducing Project costs.

The audit was conducted from August 1998 through March 1999 and included visits to the
Bureau of Reclamation’s Great Plains Regional Office in Billings, Montana; the Bureau’s
Dakotas Area Office in Bismarck, North Dakota; the Oglala Sioux’s Tribal Of&e in Pine
Ridge, South Dakota; the Oglala Sioux Rural Water Supply System’s Administrative Office
in Kyle, South Dakota; the ofices of the Tribe’s engineering firm, in Helena, Montana; and
the Tribe’s accounting firm in Albuquerque, New Mexico As part of our audit, we reviewed
the Tribe’s system of internal controls over its accounting for and management of Federal
funds as they relate to the Oglala Sioux Rural Water Supply System. We found that the Tribe
had not established the controls needed to ensure that only those segments of the System
identified in the Final Engineering Report were constructed and that the percentage
allowances for noncontract costs were kept within the percentages established in the Report.
These weaknesses are addressed in the Findings and Recommendations section ofthis report.
Our recommendations, if implemented, should improve the internal controls in these areas.

PRIOR AUDIT COVERAGE
Neither the Office of Inspector General nor the General Accounting Office has issued any
reports on the Mni Wiconi Rural Water Supply Project during the past 5 years.
                  FIIV’DINGS AND RECOMMENDATIONS

,4. PROJECT COST OVERRUNS

We found that cost overruns totaling an estimated 549.7 million will occur in constructing the
Oglala Sioux Rural Water Supply System if construction is completed as currently designed
(see Appendix 3). This amount consists of cost overruns of $16.3 million for System
components completed or under construction and $33.4 million for future construction.
Furthermore, the Tribe is likely to exceed its percentage allowance for noncontract activities,
which we estimate would increase the cost overruns by $12.9 million, to a total of
$62.6 million. The Mni Wiconi Project Act of 1988, as amended (Title 8 of Public Law
103-434), established the Mni Wiconi Rural Water Supply Project’s May 1993 Final
Engineering Report as the criterion for planning, designing, and constructing the Oglala Sioux
System. In addition, the cooperative agreements between the Bureau ofReclamation and the
Tribe stated that the Bureau was to ensure that the System was planned, designed, and
constructed as generally described in the Final Engineering Report. However, cost overruns
will occur because the costs for some components were underestimated; other components
were not included in the Report; and the Bureau and the Tribe did not ensure that the System
was planned, designed, and constructed as described in the Report. As a result, the System
as currently designed cannot be completed within the existing appropriation ceiling.

Construction Costs

The costs incurred for some construction components of the Oglala Sioux Rural Water
Supply System exceeded the estimates in the May 1993 Final Engineering Report because the
cost estimates were understated, the components were expanded, and/or the components had
been “overlooked” and not included in the Final Engineering Report. These components
included buildings; pipelines; and a water treatment plant that will be used to manage,
operate, and maintain the System. The Bureau and the Tribe believed that the increased costs
were necessary and generally allowable under the Mni Wiconi Project Act, as amended.
Therefore, the Bureau approved these additional costs but did not seek increases in the
authorized appropriation ceiling to reflect the increased costs associated with these
components.

       Underestimated Costs.      During our review, we compared the contracted
construction costs with the field cost? for the components as outlined in the Final


‘As outlined in the Final Engineering Report, field costs were Ihe contract costs for a construction component,
mcluding 23.75 percent for appurtenant items and contingencies. The Report defined appurtenant items as
“items that were not specifically identified in the cost estimating procedures because the item does not
represent a significant cost. [including] such things as vah-es along the pipeline. miscellaneous electrical
wiring in the pump stations. tees, bends. and other necessary. but minor components of the constructed
project.” The Report defined contingencies as costs incurred for “unforeseen circumstances during
construction [such as] an unexpected excavation into rock along the pipeline route uhere no rock was
anticipated or the need to build a stronger foundation at the treatment plant because unusual soil conditions
were discovered.”

                                                      4
Engineering Report. Based on our review, we found that costs for some components
exceeded the costs in the Report by a total of $8.6 million. The underestimated costs
resulted from changes in quantities and prices of materials andior in the design specifications.
For example:

        -The cost of the Missouri River water intake for the core system increased by
$1.9 million because the intake site was changed from the Oahe Dam site identified in the
Report to Echo Point on the Missouri River below the Dam, lvhich increased the costs for the
intake to the water treatment plant and for the building that houses the pumping station.

        -The cost ofthe core system’s water treatment plant increased by $1.5 million because
the treatment plant’s location, floor plan, and elevation and the requirements for the
associated lagoons were not known or defined when the Report was prepared.

        -The cost of the completed portion of the pipeline for the Kadoka-to-Pine Ridge
segment of the distribution system increased by $2 million, primarily because 25,402
additional feet of pipe were needed ($300,000), pumping station costs were increased
($400,000) appurtenances and contingencies costs were increased ($300,000), and the costs
of service lines and residential connections were higher than estimated ($1 million).

         -The cost of the Oglala Interim and Slim Butte components under the Prairie Winds
Development increased the cost of the distribution system by $579,880 because the actual
composite unit cost of $5.05 exceeded the unit cost of $3.15 in the Report for 305,200 feet
of pipe.

         Additional or Expanded Components. Subsequent to the issuance of the Final
Engineering Report, the Bureau and the Tribe determined that components needed to
manage, operate, and maintain the System had been “overlooked” and that other components
needed to be expanded. Based on our review, we identified additional costs of $7.7 million
for components that were not included in the Report or that were expanded. These costs
included the following:

        - The water distribution system for the Prairie Winds Development,’ which consisted
of additional residential housing and a casino development in the western area of the Pine
Ridge Reservation, added about $1.1 million to the cost of the System.

        - An administrative offtce building in Kyle and an operation and maintenance building
in both Kyle and Pine Ridge were added at a total cost of about $4 million. System officials



‘The Prairie Winds Development consists of three components: the White Clav/Wakpamni. the West
Boundary, and the Pine Ridge to Slim Butte. Only the White Clav/Wakpamni. also referred to as the Oglala
Interim component, and the Pine Ridge-to-Slim Butte component were included in the Final Engineering
Report. After inclusion of the Report m the Mni Wicom Act Amendments of 1994. the distribution system
for the Prairie Winds Development required additional expansion. Accordingly, the West Boundary Pipeline,
also referred to as the Casino Pipeline, was added, and the Pine Ridge-to-Slim Butte component nearly
doubled in size.

                                                   5
stated that the exclusion of these buildings from the Report was an “oversight” and that the
Bureau agreed to and approved the funding for construction of the buildings

Noncontract Costs

Neither the Bureau nor the Tribe adequately monitored noncontract expenditures to ensure
that the percentage allowances for these activities as established in the Report would not be
exceeded. This occurred because the Bureau did not require, and the Tribe did not establish,
a cost accounting system or structure to monitor the costs incurred for the System in
relationship to the Report’s estimates. The Report established an allowance of 39.2 percent
for noncontract costs for the System. Table 9’j of the Report further established percentage
allowances for specific activities such as design, geotechnical, archaeological, construction
observation, contract administration, and training. Based on our analysis, we concluded that
when compared with the percentage allowances in the Report, the expenditures for all
activities except for contract administration, easement administration, and training were
generally within the expected range, considering that construction of the System was only
about 25 percent complete. However, we determined that expenditures for contract
administration, easement administration, and training were substantially higher than the
percentage allowances and will exceed the estimated amounts for these activities unless they
are curtailed significantly. Table 9 of the Report indicates that the costs for contract
administration, easement administration, and training should be 13.2 percent, 1.25 percent,
and 2 percent, respectively, of the contract costs. To determine whether the expenditures for
these activities were within these allowances, we multiplied the Tribe’s overall rate of
14.45 percent7 by the contract costs incurred through September 30, 1998, and compared this
amount ($4.9 million) with the amount recorded in the Tribe’s accounting records for
contract and easement administration and training ($15.6 million). Based on this comparison,
we found that the amount expended was more than three times the amount allotted for these
activities.

Bureau and Tribal offkials told us that noncontract costs, especially for contract
administration, easement administration, and training, were generally higher during the early
stages of a project and that they expected these costs to decrease significantly as the System
is constructed. Although we agree that the costs for these activities may decrease: we
concluded that the expenditures incurred through September 30, 1998 ($15.6 million), were
disproportionately high when compared with the computed allowance ($4.9 million). Also,




“Table Y presents a summa? of the computations used to determine the project cost estimates for the Mm
Wiconi Rural Water Supply; Project. The noncontract rate of 39.2 percent included an allowance of-i percent
for the Bureau’s oversight responsibilities. Since the Report did not contain a line item for the Bureau‘s
allocation, the Tribe allocated 1 percent from each of the following cost categories: construction obsenation,
contract administration. in\ estigation and archaeology. and easements.

-The 14.15 percent rate consists of 12.2 percent for contract administration, 0.25 percent for easement
administration, and 2 percent for training. The percentages for contract administration and easement
admimstration do not include the 1 percent allowance for the Bureau’s oversight responsibilities.

                                                      6
based on the Tribe’s expenditures to date, we determined that only $0.5 million’ remains
available for these activities ifthe System’s costs are to stay within the allowance percentages
established in the Report. Since the amount available is less than the average amounts spent
($2.8 million) on these activities during the last 3 years,’ we concluded that the funds for
these activities could be depleted by the end of fiscal year 1999 unless there is a significant
reduction in the Tribe’s expenditures or additional funds are appropriated,

We identified two factors that contributed to the Tribe’s expenditures exceeding the
allowance percentages established in the Report First, from the beginning of System
construction, the Tribe expended funds for contract administration staff and training that far
exceeded the amounts expected based on the construction funding levels. For example, Tribal
accounting records showed that the Tribe expended $4.9 million on contract administration,
easement administration, and training, including about $1 million for public involvement,
through September 30, 1994, while construction during this period totaled only $2.1 million.
In addition, the public involvement program, initiated in June 199 1 as a short-term measure
to inform Tribal members of the System’s benefits, is an ongoing program and represents
approximately 30 percent of the contract administration and training costs under the latest
cooperative agreement. Furthermore, as discussed in the section “Cost Compliance” of this
report, a high percentage of the costs tested in these categories were questioned.

Estimated Future Costs

During our review, we received estimates of future costs from the Tribe and the Tribe’s
contracted engineering firm related to the System’s construction. Since the estimates were
based mainly on technical analyses, we were not able to confum that the costs were
reasonable and accurate. However, based on the data obtained, we identified estimated future
costs of $33.4 million for components whose costs were underestimated or were not included
in the Final Engineering Report (see Appendix 3). For example:

         - The engineering firm estimated that additional costs of $18.2 million may be incurred
for the core system construction because pumping stations, resen-oirs, and pipelines are more
expensive than anticipated in the Report. This amount included $806,500 for 23,784 linear
feet of additional pipe that was not included in the Report.

       - Additional costs of $1.9 million may be incurred because the Tribe raised its Tribal
Employment Rights Office tax in August 1998 from 2 percent as included in the Report to
4 percent.




“We calculated the allowable contract administration. easement administrauon, and training costs based on
rates in Table 9 in the Report: deducted the annuai costs expended for these activities: and adjusted the
remaining amounts according to the annual composite indicts used bp the Bureau for the Project.

UDuring 1996. 1997, and 1998. the Tribe expended $2.9 million $2.3 million and $3.2 million, respecrkely,
for these activities.

                                                    7
       - An additional operation and maintenance building will be constructed in Wanblee,
South Dakota, at a cost of $900,000 for the northwest boundary of the System’s operation.
This component was not included in the Report.

        - A water storage reservoir estimated to cost $750,000 is planned for the Prairie
Winds Development to accommodate future growth resulting from the casino operations,
The Director of the Water Supply System said that the Tribe has offered to pay for half ofthe
additional costs associated with this reservoir. This water storage reservoir was not included
in the Report.

        - The Tribe may incur additional estimated costs of $8.8 million for noncontract
activities associated with the additional future increases in contract costs based on the
39.2 percent allowance in the Report.

Recommendations

We recommend that the Commissioner, Bureau of Reclamation:

        1. Request additional funding needed to construct the Oglala Sioux Rural Water
Supply System as currently planned or negotiate with the Oglala Sioux Tribe to determine
which components can be modified or eliminated to stay within the legislatively established
construction cost limitation.

       2. Negotiate with the Tribe to establish a requirement in the current and future
cooperative agreements to establish a cost accounting system for the Oglala Sioux Rural
Water Supply System. The accounting system should allow the tracking of expenses and
budgets as they relate to the Project in its entirety and to the specific construction and
noncontract components, thereby enabling the Bureau to monitor costs effectively.

         3. Monitor the costs being incurred by the Oglala Sioux Tribe to ensure that the
System is built as generally described in the Final Engineering Report and subsequent
cooperative agreements and that the costs associated with the various activities are within the
established allowances as negotiated in the cooperative agreements.

Bureau of Reclamation Response and Office of Inspector General Reply

In the May 25, 1999, response (Appendix 5) to the draft report from the Commissioner,
Bureau of Reclamation, the Bureau concurred with Recommendations 1 and 3 but did not
concur with Recommendation 2. Regarding Recommendation 2, the Bureau stated that
instead of requiring the Tribe to establish a cost accounting system, it will negotiate with the
Tribe “to provide more detailed schedules in support of fund requests to allow more effective
tracking of expenses and budgets.” We believe that this proposed action meets the intent of
the recommendation to improve the effectiveness of the Bureau’s monitoring. As such. we
consider all three recommendations resolved but not implemented (see Appendix 7).



                                               8
B. COST COMPLIANCE

We found that costs of $34.3 million’” incurred by the Tribe under construction contracts for
the Oglala Sioux Rural Water Supply System and of $14.4 million’” for related noncontract
activities, such as design, geotechnical design, archaeology, inspection, and investigation,
were generally expended in accordance with Federal law, regulations, and cooperative
agreements. However. based on our review of costs of $15.6 million incurred by the Tribe
for other noncontract activities (contract and easement administration, training, and indirect
costs), we identified expenditures that were not allowable under Ofice of Management and
Budget Circular A-87 and the cooperative agreements, were not supported by the Tribe’s
accounting records, or were not in compliance with the provisions of the cooperative
agreements or the indirect cost rate agreements. Cost compliance requirements are
established through Office of Management and Budget circulars, the Tribe’s Financial
Manual, cooperative agreements, and negotiated indirect cost rate agreements. We believe
that the questioned expenditures were incurred because the Bureau and the Tribe did not
clearly establish in the funding agreements the amounts and the types of costs that could be
charged to the System and ensure that the indirect cost charges were based on the approved
rates. As a result, of the direct costs of $660,728 tested, we classified $64,919 as cost
exceptions because they were not applicable to the System and $266,228 as unsupported
costs because of a lack of documentation showing the relationship ofthe costs to the System.
In addition, we questioned $366,428 of the $486,722 of direct Tribal administration costs,
which consisted ofcost exceptions of $140,349 because, in our opinion, they were not related
to the Tribe’s administration ofnonconstruction contracts and unsupported costs of$226,079
because we could not readily trace these costs to specific expenditures. Finally, we classified
$456,53 1 of indirect costs as a cost exception because the Tribe did not adjust its charges to
the approved final indirect costs rates.

Contract Administration and Training

We judgmentally tested, based on the dollar significance of transactions, costs of $660,728,
or approximately 34 percent, of the $1,920,607 expended by the Tribe in seven” of its
administrative accounts for the period of January 1995 through September 1998. Based on
this review, we questioned costs totaling $334,934, which consisted of cost exceptions of
$64,9 19 and unsupported costs totaling $266,228. The 1994 cooperative agreement between
the Bureau and the Tribe stipulates that administrative costs incurred by the Tribe be
reasonable and allocable to the work performed under the agreement. The agreement also
states that Office of Management and Budget Circular A-87 should be used as the criterion
for determining the allowability of costs, provided that the circular does not conflict with the
terms of the Indian Self-Determination and Education Assistance Act (Public Law 93-638),
as amended. In addition, the Tribe’s Financial Management System Manual incorporates


“Our review did not include a technical evaluation or a test of reasonableness of the extent of expenditures
incurred in these categories. since these issues should be evaluated by the Bureau.

“The seven accounts were Administration, Community Involvement/Outreach Training, Travel, Committee/
Ad\isoy. Committee/Elderly. and Committee/Steering.

                                                     9
Office of Management and Budget Circular A-87 and recommends that “program directors
operating under a [Public Law 93-I 638 contract refer to OhlB [Office of Management
and Budget] Circular A-87 as a general guide in the allowability of costs charged to the
contract.“”

        Cost Exceptions. We identified cost exceptions of $64,919 pertaining to
expenditures that are unallowable under Office of Management and Budget Circular A-87,
the Tribe’s Financial Manual, and the cooperative agreement as follows:

        - Travel costs of $13,489 incurred for items such as Tribal government activities or
incorrect per diem rates. Although the Tribe’s compliance reviews had questioned some of
the costs for those trips, such as for an airline ticket, per diem, or lodging, the reviews did not
question the entire cost of the trip.

        - In our opinion, costs totaling $5 1,430 were not allocable to the System as follows:
$17,610 for items such as quilts, beadwork, and crafts; $14,127 for Tribal government;
$10,359 for flowers and fUnera services; $3,114 for gifts and video games; and $6,220 for
miscellaneous items, such as a duplicate payment and expenditures associated with the
operation and maintenance agreement.

        Unsupported Costs. We identified unsupported costs totaling $266,228 as follows:

        - Travel costs of $36,742 were not supported by documentation such as receipts for
costs incurred or travel reports showing that the trip was System related.

       - Documentation for costs of $229,486 was insufficient for us to determine whether
the expenditures were allocable to the System. The unsupported costs consisted of $85,382
for food and grocery purchases; $61,170 for art purchases; $65,339 for sponsorship
payments; and $17,595 for unsupported training, meetings, and Tribal payments.

In addition, we noted a general increase in the extent ofunsupported expenditures since 1995,
specifically in the areas of food/grocery, art, and sponsorship payments, as noted in the
following chart:

       DescriDtion              1995         1996          1997     1998                 Total
       Food, groceries          $8,504       $9,652       $33,122 $34,104              $85,382
       Art                                                 56,570    4,600              61,170
       Sponsorships              6,405        9,522        16,786   32.626              65,33 9
         Total                $14,909 $19,174 $106,478 $71.330                       $211,891




“Although Public Law 93-638. as amended, refers to contracts. we believe that the cooperative agreements
for the planning, design, and construction of the Water Supply System are under the puniew of the same
guidelines.

                                                   10
Fiscal year 1995 was the last year whereby the Bureau and the Tribe negotiated a funding
modification that allocated specific dollars to contract administration activities, including
public involvement-type expenditures. We believe that the expenditures listed in the chart
occurred because the Bureau and the Tribe did not clearly establish the amounts and the types
of eligible costs in the funding agreements.

Tribal Office Administration Account

Of the $486,722 that was charged to an administrative account established under the 1994
cooperative agreement, we questioned $366,428. Bureau officials stated that when the
agreement was formulated, the Tribe indicated its intent to administer the subcontracts for
nonconstruction type activities, such as planning, designs and specifications, and construction
management, directly from the Tribal offtces and not through the Oglala Sioux Rural Water
Supply System “Board and their staff.”              Accordingly, the cooperative agreement
(No. 4-FC-60-04080) included a provision (Clause IV C.2.) that stated, “The Tribe’s
administrative cost for subcontracted nonconstruction items (engineering planning, designs
and specifications, construction management) shall not exceed 5 percent of the value of any
contract authorized [and that] the Tribe will not assess an administrative fee on the
construction contracts authorized by this agreement.” To implement the provision, the Tribe
established an account titled “Administration,” with a budget of 5 percent ofnonconstruction
contract costs to defray the Tribe’s costs for labor, travel, and miscellaneous expenses (office
setup) that were directly attributable to its efforts to administer subcontracts and that were
not included in the Tribe’s indirect cost rate. Bureau officials told us that their understanding
was that the Tribe was to bill the System for these services on an actual cost basis, not on a
flat 5 percent rate. However, the System’s Director told us that he believed the Tribe was
allowed a 5 percent fee for these services and that the Tribe therefore did not bill for actual
costs but instead provided the “Administration” account to the System to charge “general’
expenses, which we found were not related to the Tribe’s administration of nonconstruction
contracts. For example, based on our review of the charges to the account totaling
$260,64313 for the 9-month period ending September 30, 1998, we classified costs totaling
$140,349 as cost exceptions. These costs consisted of $21,940 for quilts, arts and crafts,
paintings, sculptures, and beadwork; $48,945 for public involvement activities, such as
sponsorships, honoraria, pow wows, rodeos, and youth activities; $7,852 for food/groceries
and banquets; and $6 1,612 for travel of project staff that was not related to the Tribe’s
administration of nonconsttuction contracts.

We were not able to determine whether the $226,079 charged to the Administration account
for the period prior to January 1998 was related to the System because several adjusting
journal entries were not adequately supported in the Tribe’s accounting records. Therefore,
costs that were charged to the System were not identifiable. As such, we classified costs of
$226,079 as unsupported.



“The $260.613 included costs of $36,171 that we classified as cost esceptions or unsupported costs as part
of our judgmental sampling of the seven contract and easement administration and training accounts. The
$36.171 is not included in the cost exceptions of $140,359.

                                                    11
Recommendations

We recommend that the Commissioner. Bureau of Reclamation.

        I. Negotiate a contract modification with the Oglala Sioux Tribe to provide for the
types and amounts of allowable costs related to contract administration and training and
ensure that Bureau officials incorporate this information in future agreements.

        2. Instruct the Oglala Sioux Tribe to reimburse the System for the cost exceptions
of $64,919 and to reimburse or provide documentation for the unsupported costs of
$266,228 identified by our review. Also, any supporting documentation provided by the
Tribe should be reviewed, and a final determination on the amount of unsupported costs to
be reimbursed should be made.

         3. Instruct the Oglala Sioux Tribe to bill for the Tribe’s administrative cost for
subcontracted nonconstruction items (engineering, planning, designs and specifications, and
construction management) on an actual cost basis and ensure that the Tribe reimburses or
provides support for cost exceptions of $140,349 and unsupported costs of $226,079
identified by our review of the Administration account.

         4. Instruct the Oglala Sioux Tribe to reimburse the Water Supply System for the
indirect cost overcharges totaling $456,53 1 and ensure that indirect cost charges for 1996 and
subsequent years are adjusted to approved final indirect cost rates based on actual costs.

Bureau of Reclamation Response and Office of Inspector General Reply

In the May 25, 1999, response (Appendix 5) to the draft report from the Commissioner,
Bureau of Reclamation, the Bureau concurred with all four recommendations. As such, we
consider all recommendations resolved but not implemented (see Appendix 7).

Oglala Sioux Tribe Response and Office of Inspector General Reply

In the May 27, 1999, response (Appendix 6) to the draft report from the President of the
Oglala Sioux Tribe, the Tribe generally disagreed with our finding on cost compliance but did
not address the finding on project cost overruns. The Tribe included specific comments on
our report. These comments and our replies are presented in the paragraphs that follow.

Cost Exceptions

The Tribe stated that the Oglala Sioux Rural Water Supply System “disputes that any
repayment to the Bureau of Reclamation is required for cost exceptions” totaling $64,919.
and it provided “supporting documentation” and other information regarding the basis for its
changes to the cooperative agreement for community involvement, training, travel, and
committee stipends. However, we did not find the “supporting documentation” or the
explanations in the Tribe’s response sufficient to resolve any of the cost exceptions.


                                              13
The Tribe also stated that although “the audit report listed check number 2001 as one of the
items excepted,” that check was “voided and replaced by check number 2002.”

Regarding the cost exceptions for travel, the Tribe stated that “the program was not charged
for this travel and BOR [Bureau of Reclamation] did not pay for any of the costs excepted.”
According to the Tribe, program expenditures were reduced for these costs “through
adjusting journal entries to the accounting records to transfer such costs to the Tribe’s
general fund or program generated revenues. ” The Tribe stated that it provided “copies of
the work papers for the adjusting entries.”

        Office of Inspector General Reply. The documentation provided by the Tribe did
not substantiate that the training and travel costs, which included attendance at the National
Congress ofAmerican Indians and Little Bighorn meetings, were related to the project. Also,
although Check No. 2001 in the amount of $1,574 for training costs had been voided and
replaced with Check No. 2002, System expenditures were not properly adjusted. We
determined that an adjustment of only $250 was made to System expenditures, resulting in
an overcharge of $1,324.

 Regarding the adjusting journal entries for the travel costs, our review of the journal entries
 determined that none of the travel costs classified as cost exceptions were included in the
journal entries.

        Oglala Sioux Tribe Response. Regarding the cost exceptions for committee stipend,
the Tribe provided documentation with its response to “support that all costs incurred were
for the benefit ofthe program, except costs for $3,200 which was for contracted services
for the operation and maintenance program and was corrected by [an] adjusting journal entry
to transfer the costs from the operation and maintenance program to the program.”

        Offke of Inspector General Reply. The cost exceptions we identified included
stipend payments for Tribal members attending the Teton Sioux National, the Black Hills
Sioux Treaty Council, and the Crazy Horse Planning Commission meetings, for which there
was no demonstrated relationship or benefit to the project.

Regarding the operation and maintenance costs included in these charges, the Tribe’s
response was not clear on the nature of the adjustment. According to the response, incorrect
charges of $3,200 were corrected by an adjusting journal entry transferring the costs from the
operation and maintenance program “to the m-ogram.” (Emphasis added.) However, if the
transfer was to the program rather than from the program, the exception would be doubled
because operation and maintenance costs are not allowed under the coofierative agreement.

Unsupported Costs

        Oglala Sioux Response. The Tribe provided documentation with its response that.
according to the Tribe, would “substantiate that the costs were incurred for the benefit of the
program.”



                                               15
        Offke of Inspector General Reply. The documentation provided by the Tribe was
sufficient to support charges for two items totaling S3.7S7, and we have revised the audit
report accordingly. However, the other documentation \vas not sufficient to substantiate that
the remaining unsupported costs of $266,228 were related to the project. For example, these
costs included $85,382 for groceries and other food purchases for which the documentation
submitted did not identify the specific event for lvhich the purchases were made.
Furthermore, grocery and food purchases were made on a frequent basis, often several times
a week. and in some cases, it appears that the purchases were for meals for a few individuals.
We believe that the Bureau should obtain assurance from the Tribe that all unsupported costs
were incurred for the benefit of the Project.

Administrative Costs

        Oglala Sioux Tribe Response. The Tribe acknowledged that               the cooperative
agreement permitted it to assess administrative costs of up to 5 percent of    nonconstruction
contract costs for the management of subcontracts for nonconstruction type     activities, but it
stated that it allowed the program to use these funds for other activities.    Specifically, the
Tribe stated:

        In an effort to permit the program increased funding for direct services, the
        Tribe waived the five percent administrative fee and allowed the program to
        expend a similar amount for general direct sen;ices in lieu of the fee. This is
        generally the explanation for the five percent administrative fee in the audit
        report. The program does not dispute the audit findings that general direct
        expenditures were charged to an administrative account.

According to the Tribe, Bureau of Reclamation officials were advised of, and did not object
to, this policy.

The Tribe further stated that although it had “waived the administrative cost charges to the
program for subcontracted nonconstruction items, [it] did incur costs related to this
administration, [which] could have been charged to the program.” Specifically, the Tribe
identified administration costs totaling $636,176 for the period January 1, 1995, through
September 30, 1998, consisting of $121,055 for “Contract Management,” $131,503 for
“Financial Management,” and $383,618 for “General Management.” According to the Tribe,
these administrative costs exceeded the 5 percent limitation in each year, which “eliminates
the requirement of documenting unsupported expenditures for administration in the audit
report. ”

Further, in response to Recommendation 3 concerning administrative costs, the Tribe stated
that the program “agrees to bill for Tribal administrative costs as recommended in the audit
report” However, the Tribe requested that “the administrative costs previously incurred as
identified in [its response] be accepted as permitted in the cooperative agreement, rather than
to require the Tribe to reimburse for any audit exceptions or unsupported costs.”




                                              16
         Offke of Inspector General Reply. We disagree that the use of these funds for
“direct services” was proper. The cooperative agreement authorized the use of these mnds
for the specific purpose of reimbursing the Tribe for costs incurred in administering
subcontracts for nonconstruction type activities that were not covered by the Tribe’s indirect
cost rate, and there was no documentation in the files indicating that the Bureau had approved
the use of these funds for other purposes. In addition, the provision in the cooperative
agreement states that the administrative costs “shall not exceed 5 percent of the value of any
contract authorized,” indicating that the Tribe was to be reimbursed only for the actual
administrative costs incurred. Furthermore, we found that the costs charged to the
administrative account were for the same types of expenses such as food and groceries, public
involvement, and quilts and paintings that we classified as cost exceptions and unsupported
costs in prior sections of our report.

We also disagree that the Tribe has incurred sufficient “costs related to this administration
     [which] could have been charged to this program. ” The contract management, financial
management, and general management costs identified in the Tribe’s response are included
in the Tribe’s indirect cost rates; therefore, charging these costs directly to the project would
result in a duplicate charge.

Indirect Costs

         Oglala Sioux Tribe Response. The Tribe disagreed with our recommendation that
it should reimburse the Water Supply System for indirect cost overcharges totaling $456,53 1,
stating the following:

         The program disputes that any overcharges occurred in the indirect cost
         charges during 199 1 through 1995. The 1988 amendments (Public
         Law 100-472) to the Indian Self-Determination and Education Assistance Act
         precludes the Department of the Interior from such adverse adjustments as
         recommended in the audit report.

The Tribe also provided a “legal opinion from the leading expert on indirect cost issues” that
“strongly supports the program’s position that any repayment of indirect costs would be a
violation of law.“‘J

        Offke of Inspector General Reply. We disagree that requiring repayment of the
indirect cost overcharges would be a violation of law or, as stated in the legal opinion
obtained by the Tribe, contrary to the court’s decision in the Ramah Navajo case. Our
comments, based on advice from our Office of General Counsel on the specifics ofthe Tribe’s
response, are included in the paragraphs that follow.

We believe that these indirect cost charges were properly questioned pursuant to the terms
of the indirect cost rate agreements between the Office of Inspector General and the Oglala


‘“We did not include a copy of the legal opinion in our report but considered the opinion in addressing the
Tribe’s response.

                                                    17
                                                          APPENDIX 1


      CLASSIFICATION OF MONETARY AMOUNTS



                                             Questioned Costs

                                            cost      Unsupported
                  Finding                Exceptions      costs

Cost Compliance

 Contract Administration and Training      $64,9 19      $266,228

 Tribal Offke Administration Account       140,349        226,079

 Indirect Costs                            456,53 1

      Total                               $661,799       $492,307




                                    19
                                                 COSTS CONTRIBUTING TO PROJECTED OVERRUN

                                                                                                               Costs Through Septcmher 1998
                                                                                                          Final Engineering Report                                 Estimated           Total System
                                               Description                                                Added to       Exceeded             Total Costs         Future Cow             Increase
       Administration and operation and maintenance buildings                                             $4,000,778                           $3,000,778                                 $4,900.77X

        Surface water intake                                                                                                 $1,933,611          1,933,611                                 1,933.(11 1
       Water treatmenl plant                                                                                                    1,486,X88        1,486,888                                 1,)X6.888
       Pipelines, pumping stations. reservoirs for core system                                                                     75,210           75,210           18,154,207           18,229,-117

        Easements payments                                                                                     163,504                             163,504               225,000              388,50-l

        Additional residence connections                                                                                                                                 100,000              100.000

       Prairie Winds Development                                                                            1,142,183             579,880        1,722,063               750.000           2.472.063

        Constructedhdcr constrwztion          Kadoka to Pine Ridge'                                                             2,(137,6SJ      2,037,654                                  2,037.05-l

        Upgrade of esisting systems                                                                                                                                      558,YO7              SSX.YO7

        Distribution system expansions due to population increase in Bennet County                                                                                     1.609>806            1,6OY,XO6
m
CL
        Nonconlract costs related to above construction                                                     2,1X6,264           2,448,742       4,635,006             8,X23,659           13,458,665

        Wastewater study                                                                                                                                                 400,000              400.000

        Water trucks prior to operation and nlaintenance agreement                                            215,019                              215,019                                    215,019

        Increase in TERO by 2 pcrccnt2                                                                                                                                 I 1 872 > x99        I 1 X72 1 X00
          Subtotal                                                                                         $7,707,748       $    8,561,985 $16,269,733             $33,39-l,478         $49,664.2 1 I
                                                                                                                                12,954,564      12,954,564
                                                                      3
        Noncontract costs exceeding percentage allowance                                                                                                                                  12,954.564
          TohI                                                                                             $7,707,74X       $21,516,549       $29,224,297          $33,391,47X          $62,hlX.775


     ‘Consists ot’thc lirlly co~~s~rt~ctctl Kyle Norlh, Kyle to Sharps I, Kyle   to Stlaqw   II, Alllcricarl/l’orculJlrle, a11d Porcupine Easthktndersou   South seglnents und ttlc Sllw>s to I’orcupiIIt:
     segment that IS under mlstructml d will he completed in 1999.

     Ths TERO (Tribal Employment Rights Ot’tice) tax rate increase of2 percent was calculated based on construction funding remaining within the existing appropriation celling.                             %
                                                                                                                                                                                                             w
     ‘WC compared the nWlUJlltIXt rspenditures calculated by using the percentage allowance per ‘I‘ahlt: 9 in the I:inal I:rlgiocsring Report (less the 4 pcrc‘cl~l ;~llowr~ce li)r 111~ I ~IIC;III)         M
     with the COSIS recorded in IhcTrihc‘s linancial systctn to dctcrminc thealw111~1 cscccdiug 111~ I-+xJI I ;~llowa~~cc tl11011gl1 Scplcmher lYY8. WC rccoglllrr: 1Il;rt llollcolltluct esp~lldltl~r~s
                                                                                                                                                                                                             3
     are to some cxtcllt lion1 ioatlcd. ‘l%crclbrc, the $12.9 million can he rrtluced ifthe System expends furlds li)r the rcmaindcr ofthc construction period at a11 ;ltnol~nt ttlut IS lo\tcr than
     the percentugc allowance provided for in the Report.                                                                                                                                                    S?
                                                                                                                                                                                                             w
                                                                                                            APPENDIX 4


                          REVIEW OF SELECTED ACCOUNTS


                                                                        Questioned Costs                        N O

                              Account         Amounts           cost      Unsupported                       Exceptions
            Accounts           Totals         Reviened        Exceptions      costs      Total                Noted
 Admimstration                $459,263        $282,001          $27,035       $138,331 $165;366              $116,635
 Community Involvement         434,546          127,617          20,485          88,498         1 O&983         18,634
 Training                      497,737          139,948           3,879          18,109         21,988         117:960
 Travel                        3 12,732         72,696            9,3 18         14,910         24,228          18,468
 Elder Committee                    16,585           1,725            100            1,425        1,525               200
 Ad1isox-y Committee            97,125           2,750                200            1,750        1>950               800
 Steering Committee            102,619          33.991            3,902              3,205        7,107         26,884
   Total                    $1,920,607        $660.728          $64.9 19      $266.228        $33 1.147      $329.581
 Percent of Total
   Amounts Reviewed                            100.00%           9.83%          40.29%         50.12%          49.88%
 Percent of Accounts
   Total                      100.00%           34.40%           3.38%          13.86%          17.24%         17.16%




                             Transactions                      Transactions Questioned                    No Exceptions
          Accounts         Total    Reviewed            Exceptions    Unsupported      Total                  Noted
Administration              2,641         124                   19           60            79                     45
Community Involvement       1,318              103               23             69               92               11
Trammg                        715               52                6             17               23               29
Travel                      2,014               70               22             19               41               29
Elder Committee               151                6                1              3                4                   2
Advisory Committee            701               17                1             10               11                   6
Steering Committee            662               33                6              5               11              22
  Total                     8,202              405               78          183                261              144
                                                                            -
Percent of Total
  Transactions Reviewed                 100.00%              19.26%         45.18%           64.44%          35.56%
Percent of Total
  Transactions            100.00%            4.94%           0.95%           2.23%            3.18%           1.76%




                                                        22
                                                                                           APPENDIX 5
                                                                                            Page 1 of 5
                   United States Department of the Interior
                                    BUREAU OF RECLAMATION
                                        Washington, D.C. 20240

                                          MAY      2 5 1999
D-5010


                                         MEMORANDUM

To:             Office of Inspector General
                 Attention: Assistant Inspector General for Audits

From:
                ;o~;!~~y

Subject:        Draft Audit Report on “Oglala Sioux Rural Water System,
                h4ni Wicom Rural Water Supply Project, Bureau of Reclamation,”
                Assignment No. W-IN-BOR-OO4-98(A)-R

The Bureau of Reclamation offers the following comments in response to the recommendations
in the subject report,

We recommend that the Commissioner, Bureau of Reclamation:

Recommendation A. 1

Request additional funding needed to construct the Oglala Sioux Rural Water Supply System as
currently planned or negotiate with the Oglala Sioux Tribe to determine which components can
be modified or eliminated to stay within the legislatively established construction cost limitation.

        Resvonse

        Concur. Reclamation intends to finalize the “Mni Wiconi Rural Water System Cost
        Containment Report” in June 1999. This report provides a wide range of options for
        addressing additional funding needs. Included in the report is an option which identifies
        how the cost ceilings for each project sponsor would need to be adjusted if the Congress
        does not authorize an increase in the construction ceiling. Reclamation will work closely
        with the South Dakota congressional delegation and.t.he project sponsor to identify and
        request the appropriate funding levels.

        The responsible official is the Area Manager, Dakotas Area Office. Target dates are:

        .      June 30,1999 - Finalize the Mni Wiconi Rural Water System Cost Contaimnent
               Report.

                                              23
                                                                                            APPENDIX 5
                                                                                             Page 2 of 5

                                                                                                        2
        .       August 3 1, 1999 - Identify additional ceiling request that Reclamation can support
                and provide the information to the South Dakota congressional delegation.
        .       September 30, 1999 - Consult with the Oglala Sioux and South Dakota
                congressional delegation in amending the legislation to increase the cost ceiling.

Recommendation A.2

Negotiate with the Tribe to establish a requirement in the current and future cooperative
agreements to establish a cost accounting system for the Oglala Sioux Rural Water Supply
System. The accounting system should allow tracking of expenses and budgets as they relate to
the Project in its entirety and to the specific construction and noncontract components, thereby
enabling the Bureau to monitor costs effectively.

        Resuonse

        Nonconcur. Reclamation does not believe Public Law 93-638 or OMB Circular A-102
        gives Reclamation the authority to require a “cost accounting system.” However,
        Reclamation believes both the law and the existing cooperative agreements provide the
        authority to require more detailed information be submitted by the Tribe in support of
        fund requests. Reclamation will negotiate with the Tribe to provide more detailed
        schedules in support of fund requests to allow more effective tracking of expenses and
        budgets as they relate to the Project in its entirety and to the specific construction and
        noncontract components.

        The responsible official is the Area Manager, Dakotas Area Office. More detailed
        schedules will be required by the Dakotas Area Office commencing with the fund request
        for the first quarter of fiscal year 2000. The target date for completing the negotiations is
        September 30, 1999.



Monitor the costs being incurred by the Oglala Sioux Tribe to ensure that the System is built as
generally described in the Final Engineering Report and in subsequent cooperative agreements
and that the costs associated with the various activities are within the established allowances as
negotiated in the cooperative agreements.

       Resuonse

       Concur. Reclamation will negotiate with the Tribe to provide more detailed schedules in
       support of fund requests to allow Reclamation to monitor costs and ensure the system is
       built as generally described in the Final Engineering Report and in subsequent
       cooperative agreements.


                                               24
                                                                                       APPENDIX 5
                                                                                        Page 3 of 5
                                                                                                    3

        The responsible official is the Area Manager, Dakotas Area Office. More detailed
        schedules will be required by the Dakotas Area Office commencing with the fund request
        for the first quarter of fiscaf year 2000. The target date for completing negotiations with
        the Tribe is September 30,1999.

Recommendation B. I

Negotiate a contract modification with the Oglala Sioux Tribe to provide for the types and
amounts of allowable costs related to contract administration and training and ensure that Bureau
officials incorporate this information in &ture agreements.

       Resnonse

       Concur. Reclamation will negotiate a modification to the cooperative agreement with the
       Oglala Sioux Tribe to establish annual budgets which identify the types and amounts of
       allowable costs related to contract administration and training. The noncontract costs will
       be based on the noncontract allowances established in the Final Engineering Report,
       2-year work plans, and the project master plans. Reclamation will also ensure that the
       requirement for annual budgets establishing allowable contract administration and
       training costs will be incorporated into titure cooperative agreements.

       The responsible official is the Area Manager, Dakotas Area Office. The target date for
       negotiating a modification to the cooperative agreement is September 30, 1999.

Recommendation B.2

Instruct the Oglala Sioux Tribe to reimburse the System for the cost exceptions of $64,919 and to
reimburse or provide documentation for the unsupported costs of $270,0 15 identified by our
review. Also, any supporting documentation provided by the Tribe should be reviewed, and a
final determination on the amount of unsupported costs to be reimbursed should be made.

       ResDonse

       Concur. Reclamation will instruct the Tribe to reimburse the System for the cost
       exceptions of $64,9 19 and request supporting documentation for the unsupported costs of
       $270,015.

       The responsible official is the Area Manager, Dakotas Area Office. The target date to
       make a final determination on the amount of costs to be transferred to non-System
       accounts regarding the $64,9 19 in cost exceptions and the unsupported portion of the
       $270,015 is September 30,1999.



                                              25
                                                                                         APPENDIX 5
                                                                                         Page 4 of 5

                                                                                                 4

Recommendation B.3

Instruct the Oglala Sioux Tribe to bill for the Tribe’s administrative cost for subcontracted
nonconstruction items (engineering, planning, designs and specifications, and construction
management) on an actual cost basis and ensure that the Tribe reimburses or provides support for
cost exceptions of $140,349 and unsupported costs of $226,079 identified by our review of the
Administration account.

       Resnonse

       Concur. Reclamation will instruct the Tribe to bill administrative costs for subcontracted
       nonconstruction items on an actual cost basis and will request that the Tribe provide
       supporting data for the $140,349 in cost exceptions and the $226,079 of unsupported
       costs. After review of the data, Reclamation will instruct the Tribe to reimburse any cost
       exceptions or unsupported costs that cannot be validated.

       The responsible official is the Area Manager, Dakotas Area Office. The target date to
       provide a letter to the Tribe is June 30, 1999. The target date to complete reimbursement
       of any unsupported costs and to ensure administrative costs for subcontracted items are
       on an actual cost basis is September 30, 1999.

Recommendation B.4

Instruct the Oglala Sioux Tribe to reimburse the Water Supply System for the indirect cost
overcharges totaling $456,53 1 and ensure that indirect cost charges for 1996 and subsequent
years are adjusted to approved fkal indirect cost rates based on actual costs.

       Response

       Concur. Reclamation will instruct the Tribe to reimburse the System for indirect cost
       charges totaling $456,53 1. Reclamation will also ensure that indirect cost charges for
       1996 and subsequent years are adjusted based on approved final indirect cost rates as
       applied to actual costs for that fiscal year.

       The responsible official is the Area Manager, Dakotas Area Office. The Area Manager
       will instruct the Tribe to reimburse the $456,531 by June 30, 1999. The target date to
       ensure that the 1996 indirect costs are adjusted to the approved rate is September 30,
       1999. Ln subsequent years Reclamation will ensure such costs are adjusted as final
       indirect costs rates are finahzed and approved by the OIG.




                                              26
                                                                                    APPENDIX 5
                                                                                     Page 5 of 5

                                                                                            5

We appreciate the opportunity to comment on the audit recommendations. If you have any
questions or require additional information, please contact Luis Maez at (303) 445-2793.




cc:    Assistant Secretary - Water and Science, Attention: Laura Brown




                                            27
                                                                                APPENDIX 6
MAY-27-99 THU 12:18 PM OST PRESIDENTS OFFICE           FAX NO, 605 867 1373      Page 1 of 9




                                              Eox H
                                Pint Ridge,South Dzkola 57770
                                     Phone:(605)867-5821
                                       Fax: (605)807-1373
                                  E-inail: harolds@o@ala.org

                                                                              OFFICE OF TllE PRESIOENT
                                                                                 HAROLD 0. SALWAY
                                                                                     ‘Akii Nujipi’




       I~c’:~r Mr. William:




                                             28
                                                                       APPENDIX 6
                                                                        Page 2 of 9

                   O&da Sioux               Tribe
              Rural Water Supply System
                         Telephone (605) 455-2767
                            Fax (605) 455-2731
                               PO. Box 415
                      Pine Ridge, South Dakota 57770




                                                       May 20, 1999



Mr. Dennis E. Breitzman, Area Manager
United States Department of the Interior
Bureau of Reclamation
Dakotas Area Office
P.O. Box 1017
Bismarck, North Dakota 58502


Dear Mr. Breitzman:

       This represents the response by the Oglala Sioux Rural Water Supply
System (the program) to draft audit report number W-IN-BOR-004-98(A)-R
performed by the United States Department of the Interior, Office of
Inspector General. The response is limited to Part B, Cost Compliance, of
the audit report and the accompanying recommendations pertaining to
compliance, accounting, and financial matters. There are five sections of
this response, identified as follows:

      Section I - Cost Exceptions
      Section II - Unsupported Costs
      Section III - Administrative Costs
      Section IV - Indirect Costs
      Section V - Response to Audit Recommendations

Supporting documentation and schedules are included in the audit response
and are appropriately labeled for the applicable section.

                                   -l-
                                    29
                                                                           APPENDIX 6
                                                                            Page 3 of 9




                     SECTION I - COST EXCEPTIONS

       The audit report identified $64,919 in cost exceptions pertaining to
expenditures considered unallowable either under OMB Circular A-87 or the
cooperative agreement with the Bureau of Reclamation. The costs were
incurred for administration, community involvement, training, travel, and
committee stipends. The program disputes that any repayment to the Bureau
of Reclamation is required for cost exceptions. The program’s explanation
for disputing the cost exceptions in the area of community involvement,
training, travel, and committee stipends follows. The program’s explanation
for disputing the cost exceptions in the area of administration is included in
Section III of this response.

       Communitv Involvement. The program annually budgets Bureau of
Reclamation agreement funds for an outreach program to disseminate
information to the public and to provide an avenue for public comments to
the program staff and program Steering Committee. The outreach program
was implemented due to the reluctance by the public to accept the program
on the reservation. Accordingly, the outreach program was jointly agreed to
by both the program and the Bureau of Reclamation as being an effective
method of providing interaction with the public and obtaining ideas and
perceptions about the program from the Tribal membership. The outreach
program in identified in the program budget as public involvement, and
often is referred to as community involvement.

       Use of federal funds for public involvement is consistent with the
intent of the 1994 amendments to Public Law 93-638, the Indian Self-
Determination and Education Assistance Act, where Tribes were given
broad latitude in the expenditure of 93-638 funds. Under these amendments,
Tribes were generally given the flexibility in the expenditure of funds as
deemed necessary by the Tribes to achieve program goals and objectives.

       Federal policies on the expenditure of program funds were also
greatly amended by changes in OMB circular A-87. These changes further
support flexibility in the expenditure of such funds. OMB Circular A-87
provides that community involvement expenditures are a form of public
relations. The Circular states that public relation expenditures are permitted
and include, “activities dedicated to maintaining the image of the

                                     -2-
                                      30
                                                                            APPENDIX 6
                                                                             Page 4 of 9




 governmental unit or maintaining or promoting understanding and favorable
 relations with the community or public at large or any segment of the
 public.”

       The Bureau of Reclamation approved the program’s annual budget,
including administrative components, with line-item budgets for community
involvement. There are no restrictions by type, classification, purpose, or
amount written into the BOR agreement as to the expenditure of community
involvement funds.

        Since OMB Circular A-87 permits public relations expenditures for
any segment of the public, community involvement costs are permitted
through a broad range of expenditure categories. All of the community
involvement costs incurred by the program were for high profile purposes.
In other words, the public relation benefits from the expenditures were easily
identified.

       The audit report categorized community involvement costs by
identifying certain costs as exceptions, without an explanation as to the
difference in the costs incurred that were not excepted. This places the
auditor in a position of making arbitrary decisions on the classification of
community involvement expenditures, which diminishes the expenditure
latitude given to Tribes through the self-determination process: While such
audit decisions may be relevant on non 93-638 programs, it is inconsistent
with the flexibility provided to Tribes in the expenditure of funds in the 1994
amendments. Accordingly, the program strongly disputes any cost
exceptions in the expenditure of community involvement funds.

        The
        Training.
              audit report listed cost exceptions of $3,879 for
training. Documentation is attached to support that all costs incurred were
for the benefit of the program in fill compliance with the BOR agreement.
It is noted that the audit report listed check number 2001 as one of the items
excepted. Check number 2001 was voided and replaced by check number
2002. All applicable documentation to support the costs related to check
2002 are attached. See supporting documentation entitled Section I -
Training.

      The
      Travel.
           audit report listed cost exceptions of $9,3 18 for travel.

                                     -3-
                                      31
                                                                           APPENDIX 6
                                                                            Page 5 of 9




 The program does not dispute the lack of documentation resulting in the
 audit exceptions. However, the program was not charged for this travel and
 BOR did not pay for any of the costs excepted, therefore no funds should be
 repaid to BOR for the exceptions.

        The program maintains a detailed list of outstanding travel advances
 and periodically reduces the program expenditures by the amount of
 outstanding advances and other costs not associated with the program, such
 as travel by elected officials. These reductions are made through adjusting
journal entries to the accounting records to transfer such costs to the Tribe’s
 general fund or program generated revenues. Program expenditures were
reduced by $22,351 on July 11, 1998, to reflect outstanding advances
through June 30, 1998. Similar reductions of $44,000 and $18,014 were
made on July 10, 1997, and February 28, 1997, to reflect correction of
outstanding travel advances through December 3 1,1996. The audit report
did not include travel cost exceptions for 1995, therefore no adjusting entries
are attached for 1995. These adjusting journal entries to the accounting
records corrected the overcharges to the program due to 1) failure to
reconcile travel advances, 2) travel that was unrelated to the program, and 3)
travel for elected officials and other employees and administrators that were
not directly involved with the program. Such entries not only corrected the
cost exceptions included in the audit report, but also corrected additional
program charges that should not have originally been expended by the
program. Copies of the work papers for the adjusting entries are attached.
See supporting documentation entitled Section I - Travel.

       Committee Stipends. The audit report listed cost exceptions of $4,202
for committee stipends and related costs. Documentation is attached to
support that all costs incurred were for the benefit of the program, except
costs associated with check number 2 1160 for $3,200 which was for
contracted services for the operation and maintenance program and was
corrected by adjusting journal entry to transfer the costs from the operation
and maintenance program to the program. See supporting documentation
entitled Section I - Committee Stipends.

                                     -4-


                                      32
                                                                             APPENDIX 6
                                                                              Page 6 of 9




                  SECTION II - UNSUPPORTED COSTS

       The audit report identified $270,015 in cost exceptions pertaining to
expenditures considered to need additional documentation to substantiate
that the costs were incurred for the benefit of the program. The costs were

incurred for administration, community involv.ement, training, travel, and
committee stipends. All required supporting documentation has been
included with this response, except in the area of administration which is
included in Section III of this response.

       Communitv Involvement. Community involvement expenditures for
sponsorships and related activities require a completed activity statement
with explanation or accounts payable voucher. Documentation for these
costs is attached. See supporting documentation entitled Section II -
Community Involvement 1995 and 1996 and Section II - Community
Involvement 1997 and 1998.

       Documentation
       Training.          to substantiate that all training costs were
for the benefit of the program is attached, except for check number 21379
for $2,647 which was miscoded to training and was for supplies. An
accounting adjusting entry was made to correct this error. See supporting
documentation entitled Section II - Training.

       The
       Travel.
             accounting adjusting entries referred to in Section I, Cost
Exceptions, Travel, in this response answers the documentation questioned
for travel. Accordingly, no additional documentation is attached.

      Committee Stipends_ Documentation to substantiate that all
committee stipends were for the benefit of the program is attached. See
supporting documentation entitled Section II - Committee Stipends.

               SECTION III - ADMINISTRATIVE COSTS

      The cooperative agreement permitted the Oglala Sioux Tribe to assess

                                    -5-
                                     33
                                                                            APPENDIX 6
                                                                             Page 7 of 9




 administrative costs for the management performed directly by the Tribe for
 subcontracts for nonconstruction type activities. The maximum amount to
 be charged to the program for this administrative effort was restricted by the
 agreement to five percent of nonconstruction contract costs.

       In an effort to permit the program increased funding for direct
services, the Tribe waived the five percent administrative fee and allowed
the program to expend a similar amount for general direct services in lieu of
the fee. This is generally the explanation for the five percent administrative
fee in the audit report. The program does not dispute the audit findings that
general direct expenditures were charged to an administrative account.

       However, in response to the adverse audit findings in this matter, the
program raises two issues. First, on two occasions (the first in 1997 and the
second in 1998) in meetings with BOR officials in Bismarck, North Dakota,
the program staff advised BOR of the program policy of charging general
direct expenditures in lieu of the five percent administrative fee. At no time
has BOR officials objected to this process.

       Second, even though the Tribe waived the administrative cost charges
to the program for subcontracted nonconstruction items, the Tribe did incur
costs related to this administration. All of these costs were incurred by the
Tribe’s general fund and according to the cooperative agreement could have
been charged to the program. A breakdown of these costs incurred by the
Tribe by year follows.

                                 1995           1996        1997          1998*

Contract Management         $ 32,597         $ 3 1,879    $ 34,079 $    22,500
Financial Management           34,515            35,233      35,307     26,448
General Management             87.076           106.477     126,315     63,750
                            $ 154.188        $ 173.589    $ 195.701 $   112.689

* Administrative costs for the period l/1/98 - 9/30/98.

   The program respectfully requests that the administrative costs
incurred by the Tribe be charged to the cooperative agreement, in lieu of the

                                     -6-

                                        34
                                                                             APPENDIX 6
                                                                              Paze 8 of 9




direct expenditures previously charged, up to the five percent limitation. In
each of the years 1995 through 1998 the administrative costs incurred
exceeded the five percent limitation. This eliminates the requirement of
documenting unsupported expenditures for administration in the audit report.

                     SECTION IV - INDIRECT COSTS

       The audit report questions $456,531 in indirect cost charges to the
program for the years 1991-l 995 and recommends that the Oglala Sioux
Tribe reimburse the program that amount. The amount questioned is the
difference between the amount calculated by applying the Tribe’s
provisional indirect cost rate to the program’s direct cost base and the
amount calculated by applying the Tribe’s final indirect cost rate to the
program’s direct cost base for each year. In all five years, the final indirect
cost rate was less than the provisional indirect cost rate.
       The program disputes that any overcharges occurred in the indirect
cost charges during 1991 through 1995. The 1988 amendments (Public Law
100-472) to the Indian Self-Determination and Education Assistance Act
precludes the Department of Interior from such adverse adjustments as
recommended in the audit report.
       The program requested a legal opinion from the leading legal expert
on indirect cost issues (Mr. Michael P. Gross) regarding this matter and a
copy of that opinion is attached as supporting documentation to Section IV.
That opinion strongly supports the program’s position that any repayment of
indirect costs would be a violation of law.

     SECTION II - RESPONSE TO AUDIT RECOMMENDATIONS

       1. Modification to Cooperative Aareement. The program will
negotiate a modification to the cooperative agreement to provide for the
types and amounts of allowable costs related to contract administration and
training as recommended in the audit report.

      2. Reimbursement For Cost Exceptions and Documentation of
Unsupported Costs. The program disputes that any cost exceptions occurred
and therefore disputes that any funds should be repaid to BOR. The

                                     -7-

                                      35
                                                                       APPENDIX 6
                                                                        Page 9 of 9


program has attached documentation to support questioned costs incurred.

       3. Administrative Costs. The program agrees to bill for Tribal
administrative costs as recommended in the audit report and respectfully
requests that the administrative costs previously incurred as identified in
Section III be accepted as permitted in the cooperative agreement, rather
than to require the Tribe to reimburse for any audit exceptions or
unsupported costs.

      4. Indirect Costs. The program disputes that any indirect cost
overcharges occurred.
                                                     Respectfully yours, /



                                                     Gerald Clifford     ’




LMJTE:  DOCL-MENTS REFERRED TO IN THIS LETTER NOT INCLUDED
 BY OFFICE OF INSPECTOR GENERAL.]




                                    -a-


                                   36
                                                                                    APPENDIX 7


               STATUS OF AUDIT REPORT RECOMMENDATIONS



Finding/Recommendation
       Reference                 Status                         Action Required

   ?,.l, A.2, and A.3     Resolved; not        No further response to the Office of Inspector
                          implemented.         General is required. The recommendations will
                                               be referred to the Assistant Secretary for Policy,
                                               Management and Budget for tracking of
                                               implementation.

 B-1, B.2, B.3, and B.4   Resolved; not        No further response to the Office of Inspector
                          implemented.         General is required. The recommendations will
                                               be referred to the Assistant Secretary for Policy,
                                               Management and Budget for tracking of
                                               implementation.




                                          37
                   ILLEGAL OR WASTEFUL ACTIVITIES
                       SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                       www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Offke of Inspector General                              Telephone HOTLINE
1849 C Street, N.W.                                     l-800424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                       (703) 235-922 1
0ffx.e of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (671) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
 .:   Toll Free Numbers:
  :    l-800-424-5081          B
  :    TDD l-800-354-0996      f
 :.                            5
 a                             5
 :    FITCommercial Numbers:
 1     (202) 208-5300
:.     TDD (202) 208-2420      E-



:     1849 C Street, N.W.
 :    Mail Stop 5341
 i    Washington, D.C. 20240
 :
:
:
:
:
:
.
